October 20, 2014

MEMORANDUM FOR:               Cecelia V. Royster
                              Director, Office of Acquisition and Agreements Management,
                              National Institute of Standards and Technology



FROM:                         Andrew Katsaros
                              Principal Inspector General for Audit and Evaluation

SUBJECT:                      Audit of NIST’s Use of Undefinitized Contractual Actions (UCAs)


We are initiating an audit of Undefinitized Contractual Actions (UCAs) at NIST.

The primary objective of this audit will be to determine whether contracting officials effectively
managed and executed UCAs. Specifically, we will determine whether contracting officials
(1) properly used and authorized UCAs; (2) timely definitized UCAs; (3) properly priced and
funded UCAs; and (4) negotiated fair and reasonable prices on UCAs.

We have scheduled an entrance conference for October 29, 2014, at which time we will discuss
our objectives in more detail. If you have any questions regarding this audit, please contact me at
(202) 482-7859 or Mark Zabarsky, Audit Director, at (202) 482-3884. We thank you in advance
for your cooperation during this audit.




      	
